HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation, Blue Cross and Blue Shield of Oklahoma, (A-07-00-00106)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, Blue Cross and
Blue Shield of Oklahoma," (A-07-00-00106)
July 17, 2001
Complete Text of Report is available in PDF format
(1.17 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our review showed that Oklahoma's update of the Medicare segment assets from
May 1, 1986 to January 1, 1999 understated segment assets by $45,508.
The understatement primarily occurred because Oklahoma did not correctly identify
Medicare segment pension assets and costs, and therefore did not equitably assign
contributions to the Medicare segment.  We recommended that Oklahoma increase
the January 1, 1999 assets of the Medicare segment by $45,508.  Oklahoma
accepted our recommendation in principle, but disagreed with certain aspects
of our computations.